0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Heather Campbell, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief for
Professor Barry Siegel as Amicus Curiae Supporting
Respondents in 20-828, Federal Bureau of
Investigation, et al. v. Yassir Fazaga, et al., was sent
via Two Day Service to the U.S. Supre~e Court, and 3
copies were sent via Two Day service and e-mail to the
following parties listed below, ·this 28th day of
September, 2021:
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioners
Ahilan T. Arulanantham
UCLA School of Law
385 Charles Young Drive East
Los Angeles, CA 90095
(310) 825-1029
arulanantham@law.ucla.edu

Counsel for Respondents Yassir Fazaga, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Catherine Mary Agnes Carroll
Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 663-6000
catherine.carroll@wilmerhale.com

Counsel for Respondents J. Stephen Tidwell and
Barbara Walls
Alexander Howard Cote
Winston & Strawn LLP
333 S. Grand Avenue, 38th Floor
Los Angeles, CA 90071
(213) 615-1993
acote@winston.com

Counsel for Respondents Paul Allen, Kevin Armstrong,
and Pat Rose
Michael H. Steinberg
Sullivan & Cromwell LLP
1888 Century Park East
Los Angeles, CA 90067
(310) 712-6600
steinbergm@sullcrom.com
Alicia M. Roll
Sullivan & Cromwell LLP
1870 Embarcadero Road
Palo Alto, CA 94303

Pardis Gheibi
M. Jordan Minot
Sullivan & Cromwell LLP
1700 New York Avenue NW
Washington, DC 20006

Counsel for Amicus Curiae

All parties required to be served have been
served.
I further declare under penalty of perjury that
the foregoing is true and correct. This Certificate is
executed on September 28, 2021.

He;ther Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ Ju.... cf J' I .?J1Jck

Jtl,,,~.

Notary Public

fa.-~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
,..e-bn1ary 14, 20::!3

